APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED

No. 19-10936
Summary Calendar

May 6, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
CHRISTOPHER MICHAEL SEVIER,
Defendant-Appellant

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:17-CR-69-1

Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
PER CURIAM:*
Christopher Michael Sevier appeals his sentence to 60 months of
imprisonment and three years of supervised release following his guilty plea
conviction for possession of a firearm by a felon and possession with intent to
distribute a controlled substance. He contends that his prior Texas conviction
for aggravated assault with a deadly weapon should not have been used to
enhance his base offense level, pursuant to U.S.S.G. § 2K2.1. He maintains

* Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.

No. 19-10936
that the Texas offense of aggravated assault does not meet the § 4B1.2(a)
definition of crime of violence because the Texas offense is materially broader
than the enumerated offense of aggravated assault and it lacks the use,
attempted use, or threatened use of physical force as an element. He concedes
that his argument is foreclosed under United States v. Guillen-Alvarez, 489
F.3d 197 (5th Cir. 2007), but presents his argument for further review.
In Guillen-Alvarez, this court held that the Texas offense of aggravated
assault with a deadly weapon constitutes the enumerated offense of
aggravated assault, and thus qualifies as a conviction for a crime of violence.
Guillen-Alvarez, 489 F.3d at 198-201. Thus, Sevier is correct that his argument
is foreclosed and. summary affirmance is appropriate. See Groendyke Transp.,
Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
The Government's motion for summary affirmance is GRANTED, the
district court's judgment is AFFIRMED, and the Government's alternative
motion for an extension of time to file a brief is DENIED.

fr

APPENDIX B

Case 3:17-cr-00069-L Document 50 Filed 08/20/19 Page 1 of 8 PagelD 154

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS DALLAS DIVISION
JUDGMENT IN A CRIMINAL CASE

UNITED STATES OF AMERICA
v.

Case Number: 3:17-CR-00069-L(1)
USM Number: 08463-063
Marti Rachel Morgan

CHRISTOPHER MICHAEL SEVIER

Defendant's Attorney

THE DEFENDANT:
pleaded guilty to count(s) before the U.S. District
Judge
pleaded guilty to count(s) before a U.S.
r Magistrate Judge, which was accepted by the
court.
• pleaded nolo contendere to count(s) which was
accepted by the court
. was found guilty on count(s) after a plea of not
guilty
r4

Counts 1 and 2 of the Information filed July 31, 2019

Counts 1 and 2 of the Indictment filed February 7, 2017

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
18:922(g)(1) and 924(a)(2) Felon In Possession of a Firearm
21:841(a)(1) and (b)(1)(c) Possession With Intent to Distribute a Controlled Substance

Offense Ended
09/12/2016
09/12/2016

Count
1
2

The defendant is sentenced as provided in pages 2 through 8 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.
The defendant has been found not guilty on count(s)
[S]

Count(s) remaining counts of Indictment filed 2/7/2017 0 is

1Z are dismissed on the motion of the United States

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.
August 19, 2019
Date of Imposition of Judgment

Signature of Judge

Sam A. Lindsay, United States District Judge
Name and Title of Judge

August 20, 2019
Date

Case 3:17-cr-00069-L Document 50 Filed 08/20/19 Page 2 of 8 PagelD 155
Judgment --'Page 2 of 8

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CHRISTOPHER MICHAEL SEVIER
3:17-CR-00069-L(1)

IMPRISONMENT
Pursuant to the Sentencing Reform Act of 1984, but taking the Guidelines as advisory pursuant to United States v. Booker, and considering the factors
set forth in 18 U.S.C. Section 3553(a), the defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of: Sixty (60) months as to Counts 1 and 2. The terms as to these counts shall run concurrently. This sentence shall
run concurrently with any sentence imposed in Case No. CF-2017-38, in the District Court of Love County, Oklahoma. This
sentence shall also run concurrently with any sentences imposed in Case No. MA1660750, pending in the Dallas County Criminal
Court 2; and Case No. F-1658118, pending in the 291st Judicial District Court, Dallas County, Texas. Pursuant to United States
Sentencing Commission Guidelines Manual, in particular, Section SG1.3(c), the November 2018 Edition, the court intends for Christopher Michael
Sevier to receive a sentence adjustment to account for any time that he has spent in custody beginning September 12, 2016, through November 4,
2016, that the Bureau of Prisons will not credit under Title 18 United States Code 3585(b).

I

The court makes the following recommendations to the Bureau of Prisons:
The court recommends that Defendant be allowed to serve his sentence at FCI, Seagoville, if he is eligible.

l

The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for this district:
❑

at

❑

a.m.

p.m. on

as notified by the United States Marshal.
The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
before 2 p.m. on
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL

Case 3:17-cr-00069-L Document 50 Filed 08/20/19 Page 3 of 8 PagelD 156
AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

Judgment -- Page 3 of 8

CHRISTOPHER MICHAEL SEVIER
3:17-CR-00069-L(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of : Three (3) years as to Counts 1 and 2.
The terms as to these counts shall run concurrently.

MANDATORY CONDITIONS
You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

4

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)
0 You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
❑

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)

Ei

You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

J

Case 3:17-cr-00069-L Document 50 Filed 08/20/19 Page 4 of 8 PagelD 157

Judgment -- Page 4 of 8

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CHRISTOPHER MICHAEL SEVIER
3:17-CR-00069-L(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.

Defendant's Signature

Date

Case 3:17-cr-00069-L Document 50 Filed 08/20/19 Page 5 of 8 PagelD 158
AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 5 of 8

CHRISTOPHER MICHAEL SEVIER
3:17-CR-00069-L(I)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall provide to the probation officer complete access to all business and personal financial
information.
The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S. Probation Office
for treatment of narcotic, drug, or alcohol dependency, which will include testing for the detection of substance
use or abuse. The defendant shall abstain from the use of alcohol and/or all other intoxicants during and after
completion of treatment. The defendant shall contribute to the costs of services rendered (copayment) at a rate
of at least $25 per month.

Case 3:17-cr-00069-L Document 50 Filed 08/20/19 Page 6 of 8 PagelD 159
Judgment -- Page 6 of 8

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CHRISTOPHER MICHAEL SEVIER
3:17-CR-00069-L(1)

CRIMINAL MONETARY PENALTIES

TOTALS
El
0

nt must pay the total criminal monetary enalties under the Schedule of Payments page.
Fine
Assessment
JVTA Assessment*
$.00
$200.00
$.00

Restitution
$.00

An Amended Judgment in a Criminal Case
The determination of restitution is deferred until
(A024 5C) will be entered after such determination.
The defendant must make restitution (including community restitution) to the following payees in
the amount listed below.

The defendant must make restitution (including community restitution) to the following payees in the
amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

El

Restitution amount ordered pursuant to plea agreement $

El

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on the Schedule
of Payments page may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
D restitution
❑ fine
El the interest requirement is waived for the

El

El

the interest requirement for the

11 fine

El restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

Case 3:17-cr-00069-L Document 50 Filed 08/20/19 Page 7 of 8 PagelD 160

Judgment -- Page 7 of 8

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CHRISTOPHER MICHAEL SEVIER
3:17-CR-00069-L( I)

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A

❑

due immediately, balance due

Lump sum payments of $
5 or

not later than
in accordance

❑

C,

❑

D,

B

❑

Payment to begin immediately (may be combined with

C

❑

Payment in equal

❑

E, or

❑

F below; or

❑

C,

❑

D, or

❑

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

or
D

❑

Payment in equal (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence
imprisonment to a term of supervision; or

E

over a period of
(e.g., 30 or 60 days) after release from

❑

(e.g., 30 or 60 days) after release
Payment during the term of supervised release will commence within
defendant's ability to pay at that
the
of
assessment
an
on
based
plan
from imprisonment. The court will set the payment
time; or

El

Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $200.00 for Counts 1 and 2,
which shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons'
Inmate Financial Responsibility Program, are made to the clerk of the court
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

Case 3:17-cr-00069-L Document 50 Filed 08/20/19 Page 8 of 8 PagelD 161
AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 8 of 8

CHRISTOPHER MICHAEL SEVIER
3:17-CR-00069-L(1)

ADDITIONAL FORFEITED PROPERTY
Pursuant to 18 U.S.C. §924(d) and 28 U.S.C. §2461(c), the following property is forfeited to the United States
of America:
a Jimenez Arms Inc., Model J.A. .380 caliber handgun, bearing serial number 363097, and all
ammunition recovered.

